                           CLOSEOUT FOR CASE MOO100037

The complainant1 informed an NSF program officer2 of allegations of misconduct in
science. The complainant alleged that his graduate advisor, the subjectY31) stole his
research work, a computer program he developed; and 2) did not provide the complainant
appropriate compensation for work performed for a project supported by IVSF. The
complainant explained that the subject published the complainant's work in two papers
(paper 1 and paper 214 which they co-authored. Both papers acknowledged NSF
support.

We learned shortly afterwe had started our inquiry that the complainant had informed the
institution of his allegations and the institution had initiated an inquiry. As is our
practice, we deferred our inquiry to the institution, and request a copy of its inquiry report
when completed.

We determined that the institution's inquiry committee report was fair, thorough, and
complete. The committee determined that the co-authored papers did not use the
computer codes the complainant was concerned about. With the help of an outside
expert, the committee determined that "much of the substance of the computer codes in
question were based on the formulae supplied by [the subject]," and that the "derivations
and extensive notes were reviewed by the expert panel member . . . who agreed that the
[complainant's] work depended heavily on the work of [the subject] and that [the subject]
had contributed materially to the development of the 'codes."'            The complainant
explained during his interview with the committee "that it was not his intention to
represent that [the subject] had 'stolen' his research." Finally, the committee learned
that the complainant thought that the publication of a paper containing some of his thesis
results before he completed his thesis would prevent him from receiving his Ph.D. The
committee noted that the subject's Department expected each student to publish a paper
prior to the completion of the dissertation as partial fulfillment of the degree. It also
noted that the acknowledgment for paper 1 did not specifically state that paper 1 was in
partial fklfillment of a Ph.D. degree as it could have, but this failure did not jeopardize
the complainant's degree. The committee determined that there was no substance to the
allegation that the subject stole the complainant's research work, a computer program he
developed.




                                        Page 1 of 2                                 M 00-37
                     I    CLOSEOUT FOR CASE I J0100037


The committee learned that the complainant thought that if the acknowledgment section
in a paper stated that NSF support was involved, he should have received some money
for his work on the project. The committee noted that the' complainant's education was
supported from the institution's funds, not NSF. It explained to the complainant that
acknowledgment of NSF funding in a paper did not mean he was to receive compensation
for work accomplished on the project. The committee determined that there was no
substance to the allegation that the subject failed to provide the complainant with
appropriate compensation for work performed for a project supported by NSF.

The university's administration accepted the report and closed its case. This inquiry is
closed and no further action will be taken.


cc: Investigations, IG




                                     Page 2 of 2
